No. 21-____
IN THE

Supreme Court of the United States
JASON SELF AND THOMAS W. LINDQUIST,
Petitioners,
v.
CHER-AE HEIGHTS INDIAN COMMUNITY
OF THE TRINIDAD RANCHERIA,
Respondent.

CERTIFICATE OF SERVICE

I hereby certify that I am a member in good standing of the bar of this Court and
that on this 27th day of September, 2021, I caused three copies of the Petition for a Writ
of Certiorari to be served by third-party commercial carrier on the counsel identified
below, and caused an electronic version to be transmitted to the counsel identified
below, pursuant to Rule 29.5 of the Rules of this Court. All parties required to be served
have been served.
Timothy C. Seward
HOBBS, STRAUS, DEAN & WALKER
1903 21st Street, 3rd Floor
Sacramento, CA 95811
(916) 442-9444
tseward@hobbsstraus.com
Counsel for Respondent

/s/ Thomas H. Dupree Jr.
Thomas H. Dupree Jr.

